HHS/OIG, Audit -"Review of Home Health Services Provided by the Lifeline Health Group, Inc.,"(A-04-03-01000)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Home Health Services Provided by the Lifeline Health Group, Inc.," (A-04-03-01000)
June 18, 2004
Complete
Text of Report is available in PDF format (1.5 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare payments to Lifeline for home health
services met Medicare eligibility and reimbursement requirements.  Based on a statistical sample, we estimate that
Lifeline was paid about $1.2 million for home health services that did not meet Medicare eligibility and reimbursement
requirements.  Lifeline billed for:  beneficiaries who were either not homebound or whose homebound status was
not adequately documented; beneficiaries who had no need for qualifying skilled services; services that were not reasonable
or necessary for the beneficiarys condition; services not properly authorized by a physician; and services not supported
by documentation.  We recommended that Lifeline:  (1) examine the errors identified and develop additional admission
controls, financial controls, and training to ensure that these types of errors do not occur in the future, and (2) work
with the fiscal intermediary to reimburse the Medicare program the estimated overpayment of $1.2 million.